APPENDIX

TABLE OF APPENDICES
Appendix A
Order, United States Court of Appeals for
the Seventh Circuit, United States v.
Laut, No. 18-2843 (December 6, 2019) ....... App-1
Appendix B
Order, United States Court of Appeals for
the Seventh Circuit, United States v.
Laut, No. 18-2843 (Jan. 9, 2020) ............... App-10
Appendix C
Judgment In A Criminal Case, United
States District Court for the Southern
District of Illinois, United States v. Laut,
No. 3:17-cr-30001 (August 22, 2018) ........ App-11
Appendix D
Indictment, United States District Court
for the Southern District of Illinois,
United States v. Laut, No. 3:17-cr-30001
(Jan. 18, 2017) ........................................... App-23
Appendix E
Superseding Indictment, United States
District Court for the Southern District of
Illinois, United States v. Laut, No. 3:17cr-30001 (June 21, 2017) ........................... App-33
Appendix F
Second Superseding Indictment, United
States District Court for the Southern
District of Illinois, United States v. Laut,
No. 3:17-cr-30001 (Oct. 3, 2017)................ App-44

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________
No. 18-2843
________________
UNITED STATES OF AMERICA,
v.

Plaintiff-Appellee,

JASON LAUT,
Defendant-Appellant.
________________
Argued: Nov. 13, 2019
Decided: Dec. 6, 2019
________________
Before: William J. Bauer, Michael B. Brennan, and
Michael Y. Sudder, Circuit Judges.
________________
ORDER
________________
Jason Laut, formerly a paramedic supervisor for
an ambulance company, was convicted of tampering
with prescription fentanyl and then covering his
tracks by doctoring business records. He argues for the
first time on appeal that the government’s evidence on
the tampering charge varied so much from the
operative indictment that it amounted to an
impermissible constructive amendment. He also
challenges the admission of evidence suggesting he

App-2
was addicted to fentanyl, which he sees as propensitybased. We affirm because Laut has not shown plain
error as to the purported constructive amendment,
and because he has not met his burden of showing that
the evidence of addiction affected his substantial
rights.
I.
From 2013 through much of 2015, Laut was a
paramedic supervisor for MedStar, an ambulance
service in southern Illinois. In this role, he managed
scheduling and paperwork and sometimes did
paramedic duty.
Memorial Hospital supplied MedStar ambulances
with narcotics that its paramedics would use to treat
patients. The narcotics boxes contained specified
quantities of fentanyl, morphine, and other drugs. A
paper form in the box, a “Narcotics Log,” was used to
track all administered or wasted drugs. After
paramedics used some of the narcotics in a box, they
would visit the hospital, where a pharmacist would
replace the box with a full one. Later, the pharmacist
would examine the returned box to ensure that the
remaining vials were full and unexpired, and then
would restock the drugs that had been reported as
used. The pharmacist would issue this restocked box
to the next paramedic who needed a refill.
But things did not always go as planned. Around
September 2014, a pharmacist suspected someone had
tampered with vials of fentanyl, prompting Memorial
to issue a fentanyl recall for all ambulances. The
pharmacist had noticed pinholes in the tops of two
fentanyl vials when MedStar paramedics working
under Laut exchanged their narcotics box. Upon

App-3
further investigation, the hospital detected tampering
in 57 fentanyl vials; 54 came from MedStar
ambulances. A lab test later revealed that in 52 of the
54 tampered vials from MedStar, fentanyl had been
replaced with water or saline solution. Memorial
began placing fentanyl back in the narcotics boxes in
January 2015. Several months passed. Then, in May
2015, Laut visited Memorial to exchange a narcotics
box for which the log indicated that he had
administered two vials of fentanyl to patients.
Consistent with that report, the box contained no
fentanyl. The pharmacist on duty pulled a new
narcotics box and inspected its contents. As she was
checking the expiration dates, Laut commented that
he had heard that tampering was happening again.
The pharmacist then checked the tops of the fentanyl
vials and discovered pinholes in them. She removed
the vials, put two new ones in the narcotics box, and
gave it to Laut. The pharmacist notified her
supervisors that she had found more tampered vials,
and the hospital implemented a second fentanyl recall.
This recall revealed 28 tampered vials; 26 were from
MedStar ambulances.
This time, Memorial further investigated the
source of the tampering. It made MedStar drug-test
its employees, and only Laut’s test came back positive
for fentanyl. The hospital also required MedStar to
comply with an audit of its Trip Detail Reports
(automatically generated reports tracking ambulance
location), Prehospital Care Reports (electronic forms
completed by paramedics describing their treatment
of patients), and Narcotics Logs. All entries in the
Prehospital Care Reports were automatically coded
with a time stamp and the name of the person making

App-4
the entry; Narcotics Logs also required dates and
paramedic signatures.
The audit revealed 91 discrepancies attributable
to Laut between 2013 and 2015. These included
instances where Laut reported that he had
administered narcotics to patients who were not
transported in his ambulance. He also had edited
Prehospital Care Reports long after treatment to show
that he had given narcotics to patients who had, in
fact, reported that they were not in pain when they
were in his care.
Federal prosecutors charged Laut with several
crimes. The operative, 38-count Second Superseding
Indictment included charges of wire fraud, 18
U.S.C. § 1343, making false statements, 18
U.S.C. § 1001(a), aggravated identity theft, 18
U.S.C. § 1028A(a)(1), and one count of tampering, 18
U.S.C. § 1365(a)(4). Although the tampering charge
was limited to 2015, some of the cover-up counts
involved Laut’s conduct during the 2014 tampering
incident as well.
At a pretrial conference, the district court granted
the government’s request to admit testimony
suggesting that Laut struggled with drug addiction
following a 2013 surgery. The court overruled Laut’s
objection that this testimony amounted to
impermissible propensity evidence, reasoning that the
evidence about Laut’s withdrawal symptoms was
relevant to his motive to steal narcotics.
At trial, the government presented extensive
evidence. It painstakingly walked through the 91
discrepancies detected by Memorial’s audit and
presented testimony from pharmacists who discovered

App-5
the tampering in September 2014 and May 2015. It
also submitted evidence that Laut alone tested
positive for fentanyl during the mandatory drug test,
although an expert witness testified that Laut’s hair
sample could have been contaminated. And the
government showed that investigators found empty
narcotics vials and extraction tools in Laut’s MedStar
vehicle after it had been taken out of service and
locked in a garage when Laut was suspended. Finally,
friends and coworkers testified that Laut’s behavior
and physical appearance changed after his 2013
surgery, and that he had shaved his entire body before
the mandatory, hair-based drug test.
The closing arguments and jury instructions that
followed give rise to the constructive-amendment
claim that Laut presses on appeal. In its closing, the
government referred to evidence of fentanyl
tampering in 2014 to support its contention that the
jury should convict Laut of the tampering charge in
the Second Superseding Indictment—a count that
cited only tampering in 2015. Specifically, the
government stated that Laut had tampered with
fentanyl vials “57 times in 2014, 28 times in 2015” and
repeatedly referred to the “85 tampered vials.” Also,
when describing the 2015 tampering, the government
stated that pharmacists discovered the tampered vials
“after Jason Laut’s tampering had already been
caught once … but he got away with it.”
The district court, meanwhile, did not provide a
limiting instruction regarding the evidence of 2014
tampering (which was relevant to some of the coverup charges that occurred throughout 2013 and 2014).
But the court did instruct that “[t]he government must

App-6
prove that the crime happened reasonably close to the
dates” set forth in the Second Superseding Indictment,
which was provided to the jury. And the verdict form
for the tampering charge directed the jury to “Count
38 of the Second Superseding Indictment,” which,
again, referred only to tampering in 2015.
Laut did not object to these arguments or the jury
instructions. The jury found Laut guilty on all 38
counts.
II.
On appeal, Laut first argues that the district court
erred in allowing the government to rely on evidence
of 2014 tampering to support the tampering charge in
the Second Superseding Indictment, which was
limited to conduct that occurred in 2015. He contends
that the government’s use of this evidence
constructively amended the operative indictment,
and, therefore, that remand is required. Because Laut
did not raise this issue in the district court, he
concedes that we review only for plain error. See
United States v. Olano, 507 U.S. 725, 732-37 (1993);
United States v. Pierson, 925 F.3d 913, 919 (7th Cir.
2019).
A constructive amendment occurs when the
government offers evidence or instructions from which
a jury could convict a defendant of a crime different
than the one charged in the indictment. See Stirone v.
United States, 361 U.S. 212, 215-19 (1960); Pierson,
925 F.3d at 919-20. Whether the government’s conduct
adds up to a constructive amendment is a “factintensive question” that focuses on the trial evidence
and the jury instructions. Pierson, 925 F.3d at 922-23.
We first ask whether the evidence “created an exit

App-7
ramp that might have tempted the jury to veer outside
the confines of [the] indictment.” Id. at 920. If so, then
the next question is whether the court nonetheless
prevented confusion by instructing the jury to limit its
consideration of that evidence. Id.; see also United
States v. Haldorson, 941 F.3d 284, 297 (7th Cir. 2019).
A constructive amendment, however, is plainly
erroneous only “if the law at the time of appellate
review shows clearly that it was an error,” and if the
defendant shows that allowing the amendment
prejudiced the proceedings. Pierson, 925 F.3d at 919;
see id. at 924; see also Olano, 507 U.S. at 734.
Without ruling on whether the government
constructively amended the indictment here, we
conclude that there was no plain error for two reasons.
First, no precedent squarely addresses whether the
court’s provision to the jury of the indictment and a
verdict form (specifying that the jury should convict
based only on the actions alleged in the indictment)
mitigates the potential harm from the prosecution’s
arguments and evidence. See Pierson, 925 F.3d at 92224. Second, Laut has not borne his burden of showing
that he was prejudiced. Id. at 924. We set “a high bar
for reversal on plain-error review,” and will find it only
if the conviction rests on thin evidence. See id. at 92526. Here we see strong evidence that Laut was
doctoring Narcotics Logs and Patient Care Reports
throughout 2015—not to mention the positive drug
test and the discovery of empty fentanyl vials and
extraction tools in his vehicle after the second fentanyl
recall. Thus, we are confident that, even absent the
putative constructive amendment, the jury almost
certainly would have found Laut guilty of the 2015
tampering charge. See id. at 924-26 (observing that in

App-8
the constructive-amendment context, plain error
requires a showing that defendant probably would
have been acquitted absent the error).
Laut next contends that the district court abused
its discretion in granting the government’s motion to
admit evidence of his prior drug use. He argues that
the government failed to identify a propensity-free
chain of reasoning to support its contention that his
drug use was relevant to his motive to steal fentanyl.
See United States v. Gomez, 763 F.3d 845, 860 (7th Cir.
2014). But at the final pretrial hearing, the
government proposed that the evidence of Laut’s drug
addiction—that his behavior and appearance changed
after his injury—offered a motive for stealing
fentanyl. Specifically, he needed drugs to feed that
addiction. Indeed, evidence of drug addiction can
demonstrate a motive to steal prescription narcotics
because it shows a desire for an “advantage to which
the crime is instrumental,” as opposed to just a
generalized propensity toward crime. United States v.
Cunningham, 103 F.3d 553, 556-57 (7th Cir. 1996); see
also United States v. Schmitt, 770 F.3d 524, 534-35
(7th
Cir.
2014)
(applying
reasoning
from
Cunningham).
Laut’s related argument on this point—that the
probative value of his supposed drug addiction was
outweighed by its prejudicial impact—also is
meritless. To be sure, evidence is inadmissible if its
probativeness is outweighed by unfair prejudice. FED.
R. EVID. 403; Gomez, 763 F.3d at 856-57. A district
court must assess that danger, taking into account
“the extent to which the non-propensity fact for which
the evidence is offered actually is at issue in the case.”

App-9
Gomez, 763 F.3d at 860. Here, the district court did
not directly address the topic of unfair prejudice. But
even if the district court erred in its discussion,
reversal would be appropriate only if admitting the
drug-addiction evidence affected Laut’s substantial
rights. Schmitt, 770 F.3d at 532. Given the other
evidence of Laut’s crimes, and the relatively small role
that the evidence of his addiction played at trial, we
cannot conclude that the jury would have found the
prosecution’s case “significantly less persuasive”
without evidence of Laut’s addiction. Id. (quoting
United States v. Garcia-Avila, 737 F.3d 484, 490 (7th
Cir. 2013)).
For the foregoing reasons, we affirm.

App-10
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________
No. 18-2843
________________
UNITED STATES OF AMERICA,
v.

Plaintiff-Appellee,

JASON LAUT,
Defendant-Appellant.
________________
Filed: Jan. 9, 2020
________________
Before: William J. Bauer, Michael B. Brennan, and
Michael Y. Sudder, Circuit Judges.
________________
ORDER
________________
On consideration of defendant-appellant’s
petition for rehearing or rehearing en banc filed on
December 20, 2019, in connection with the abovereferenced case, all of the judges on the original panel
have voted to deny the petition for rehearing, and no
judge in active service has requested a vote on the
petition for rehearing en banc. It is, therefore,
ORDERED that the petition for rehearing or
rehearing en banc is DENIED.

App-11
Appendix C
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF ILLINOIS
________________
No. 3:17-CR-30001
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

JASON LAUT,
Defendant.
________________
Filed: Aug. 22, 2018
________________
JUDGMENT IN A CRIMINAL CASE
________________
THE DEFENDANT:
***
 was found guilty on count(s) 1-38 of the Second
Superseding Indictment after a please of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

Nature of
Offense

Offense
Ended Count

18 U.S.C. § 1343

Wire Fraud 5/22/13

1-3

18 U.S.C. § 1343

Wire Fraud 9/14/13

4

18 U.S.C. § 1343

Wire Fraud 10/26/13 5

18 U.S.C. § 1343

Wire Fraud 9/4/14

6

App-12
18 U.S.C. § 1001(a)

False
Statements 9/14/13

7

18 U.S.C. § 1001(a)

False
Statements 9/21/13

8

18 U.S.C. § 1001(a)

False
Statements 4/12/14

9

18 U.S.C. § 1001(a)

False
Statements 5/10/14

10

18 U.S.C. § 1001(a)

False
Statements 6/6/14

11

18 U.S.C. § 1001(a)

False
Statements 7/4/14

12

18 U.S.C. § 1001(a)

False
Statements 7/18/14

13

18 U.S.C. § 1001(a)

False
Statements 7/20/14

14

18 U.S.C. § 1001(a)

False
Statements 8/2/14

15

18 U.S.C. § 1001(a)

False
Statements 8/12/14

16

18 U.S.C. § 1001(a)

False
Statements 8/17/14

17

18 U.S.C. § 1001(a)

False
Statements 8/22/14

18

18 U.S.C. § 1001(a)

False
Statements 9/29/14

19

18 U.S.C. § 1001(a)

False
Statements 11/22/14 20

18 U.S.C. § 1001(a)

False
Statements 12/19/14 21

App-13
18 U.S.C. § 1001(a)

False
Statements 1/18/15

22

18 U.S.C. § 1001(a)

False
Statements 3/30/15

23

18 U.S.C. § 1001(a)

False
Statements 4/25/15

24

18 U.S.C. § 1001(a)

False
Statements 4/26/15

25-26

18 U.S.C. § 1001(a)

False
Statements 5/4/15

27

18 U.S.C. § 1001(a)

False
Statements 5/6/15

28-29

18 U.S.C. § 1001(a)

False
Statements 5/12/15

30

18 U.S.C. § 1001(a)

False
Statements 5/22/15

31

18 U.S.C. § 1001(a)

False
Statements 5/25/25

32

18 U.S.C. § 1001(a)

False
Statements 5/26/15

33-34

18 U.S.C. § 1001(a)

False
Statements 5/27/15

35

Aggravated
Identity
18 U.S.C. § 1028A(a)(1) Theft
7/4/14

36

Aggravated
Identity
18 U.S.C. § 1028A(a)(1) Theft
5/6/15

37

App-14
Tampering
with a
Consumer
18 U.S.C. § 1365(a)(4) Product
5/25/15

38

The defendant is sentenced as provided in pages
2 through 8 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
 No fine.
It is ordered that the defendant shall notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant shall notify
the court and United States attorney of any material
change in the defendant’s economic circumstances.
***
August 21, 2018
Date of Imposition of
Judgment
[handwritten: signature]
Signature of Judge
David R. Herndon, U.S.
District Judge
Name and Title of Judge
Date Signed: [handwritten:
August 22, 2018]
IMPRISONMENT
The defendant is hereby committed to the custody
of the Federal Bureau of Prisons to be imprisoned for
a term of 87 months on each of Counts 1 through 6 and
38, to be served concurrently, and a term of 60 months

App-15
on each of Counts 7 through 35, to be served
concurrently, and a term of 24 months on each of
counts 36 and 37, concurrent to each other and
consecutive to all other terms imposed on Counts 1
through 35 and 38, for a total term of imprisonment of
111 months.


The
court
makes
the
following
recommendations to the Bureau of Prisons:
Defendant be designated to an institution for
participation in the RDAP program, and to
the federal prison camp located in Marion,
Illinois.



The defendant is remanded to the custody of
the United States Marshal.

***
SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be on supervised release for a term of 3 years on
each of Counts 1 through 35 and 38, and a term of 1
year on each of Counts 36 and 37, all to be served
concurrently.
Other than exceptions noted on the record at
sentencing, the Court adopts the presentence report in
its current form, including the suggested terms and
conditions of supervised release and the explanations
and justifications therefor.
MANDATORY CONDITIONS
The following conditions are authorized pursuant
to 18 U.S.C. § 3583(d) and as necessary for the
defendant while on supervision as essential for the
probation officer to successfully supervise the
defendant and to provide defendant with the structure

App-16
and monitoring needed to meet the objectives of
supervision. The Court notes that the probation
officer’s explanations in the PSR for the conditions will
help provide the defendant with an understanding of
each of the conditions.
The defendant shall not commit another federal,
state or local crime.
The defendant shall not unlawfully possess a
controlled substance.
The defendant shall refrain from any unlawful
use of a controlled substance. The defendant shall
submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests
thereafter, as determined by the Court, not to exceed
52 tests in one year.
The defendant shall cooperate in the collection of
DNA as directed by the probation officer.
It is ordered that the defendant make restitution
in accordance with 18 U.S.C. § § 3663 and 3663A or
any other statute authorizing a sentence of
restitution.
ADMINISTRATIVE CONDITIONS
The following 9 administrative conditions are
imposed, consistent with 18 USC
§ 3583(d)
and § 3553(a), as necessary for the defendant while on
supervision as essential for the probation officer to
successfully supervise the defendant and to provide
defendant with the structure and monitoring needed to
meet the objectives of supervision. The Court notes that
the probation officer’s explanations for the conditions
will help provide the defendant with an understanding
of each of the conditions, the defendant has

App-17
acknowledged an understanding of the conditions and
defendant and counsel have stated they do not object to
any of these conditions. The conditions are imposed in
an effort to deter future crimes and protect the public.
The defendant must report to the probation office
in the district to which the defendant is released
within seventy-two hours of release from the custody
of the Bureau of Prisons.
The defendant shall not knowingly possess a
firearm, ammunition, or destructive device. The
defendant shall not knowingly possess a dangerous
weapon unless approved by the Court.
The defendant shall not knowingly leave the
judicial district without the permission of the Court or
the probation officer.
The defendant shall report to the probation officer
in a reasonable manner and frequency directed by the
Court or probation officer.
The defendant shall respond to all inquiries of the
probation officer and follow all reasonable instructions
of the probation officer.
The defendant shall notify the probation officer
prior to an expected change, or within seventy-two
hours after an unexpected change, in residence or
employment.
The defendant shall not knowingly meet,
communicate, or otherwise interact with a person
whom the defendant knows to be engaged, or planning
to be engaged, in criminal activity.
The defendant shall permit a probation officer to
visit the defendant at a reasonable time at home or at
any other reasonable location and shall permit

App-18
confiscation of any contraband observed in plain view
of the probation officer.
The defendant shall notify the probation officer
within seventy-two hours of being arrested or
questioned by a law enforcement officer.
SPECIAL CONDITIONS
Imposed pursuant to 18 U.S.C. § 3553(a) and 18
U.S.C. § 3583(d) for the protection of the public,
reduce the risk of recidivism, and for the reasons that
are stated for each individual condition.
The defendant shall participate in treatment for
narcotic addiction, drug dependence, or alcohol
dependence, which includes urinalysis and/or other
drug detection measures and which may require
residence and/or participation in a residential
treatment facility, or residential reentry center
(halfway house). The number of drug tests shall not
exceed 52 tests in a one-year period. Any participation
will require complete abstinence from all alcoholic
beverages and any other substances for the purpose of
intoxication. The defendant shall pay for the costs
associated with services rendered, based on a Court
approved sliding fee scale and the defendant’s ability
to pay. The defendant’s financial obligation shall
never exceed the total cost of services rendered. The
Court directs the probation officer to approve the
treatment provider and, in consultation with a
licensed practitioner, the frequency and duration of
counseling sessions, and the duration of treatment, as
well as monitor the defendant’s participation, and
assist in the collection of the defendant’s copayment.
The defendant shall refrain from excessive use of
alcohol and shall not purchase, possess, use,

App-19
distribute, or administer any controlled substance or
any paraphernalia related to any controlled
substances, unless prescribed by a physician.
The defendant shall not knowingly visit or remain
at places where controlled substances are illegally
sold, used, distributed, or administered.
While any financial penalties are outstanding, the
defendant shall provide the probation officer and the
Financial Litigation Unit of the United States
Attorney’s Office any requested financial information.
The defendant is advised that the probation office may
share financial information with the Financial
Litigation Unit.
While any financial penalties are outstanding, the
defendant shall apply some or all monies received, to
be determined by the Court, from income tax refunds,
lottery winnings, judgments, and/or any other
anticipated or unexpected financial gains to any
outstanding court-ordered financial obligation. The
defendant shall notify the probation officer within 72
hours of the receipt of any indicated monies.
The defendant shall pay any financial penalties
imposed which are due and payable immediately. If
the defendant is unable to pay them immediately, any
amount remaining unpaid when supervised release
commences will become a condition of supervised
release and be paid in accordance with the Schedule of
Payments sheet of the judgment based on the
defendant’s ability to pay.
The defendant’s person, residence, real property,
place of business, vehicle, and any other property
under the defendant’s control is subject to a search,
conducted by any United States Probation Officer and

App-20
other such law enforcement personnel as the
probation officer may deem advisable and at the
direction of the United States Probation Officer, at a
reasonable time and in a reasonable manner, based
upon reasonable suspicion of contraband or evidence
of a violation of a condition of release, without a
warrant. Failure to submit to such a search may be
grounds for revocation. The defendant shall inform
any other residents that the premises and other
property under the defendant’s control may be subject
to a search pursuant to this condition.
***
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal
monetary penalties under the schedule of payments.
JVTA
Assessment

Assessment * Fine

TOTALS $3,800.00 N/A
($100 per
Count)

Restitution

$1,900.0 $387.86
0
($50
per
Count)

***

If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority
order or percentage payment column below. However,

*

22.

Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-

App-21
pursuant to 18 U.S.C. § 3664(i), all nonfederal victims
must be paid before the United States is paid.
Name of Payee
Memorial Hospital

Total Restitution Priority or
Loss ** Ordered Percentage
$387.86

Attn: Mike Gilbert
4550 Memorial Drive
Belleville, IL 62226
***
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as as follows:
***
B.  Payment to begin immediately (may be
combined with  C,  D, or  F below; or
***
F.  Special instructions regarding the payment of
criminal monetary penalties:
All criminal monetary penalties are due
immediately and payable through the Clerk, U.S.
District Court. Having assessed the defendant’s
ability to pay, payment of the total criminal
monetary penalties shall be paid in equal monthly
installments of $50 or ten percent of his net
monthly income, whichever is greater. The
** Findings for the total amount of losses are required under
Chapters 109A, 110, 110A, and 113A of Title 18 for offenses
committed on or after September 13, 1994, but before April 23,
1996.

App-22
defendant shall pay any financial penalty that is
imposed by this judgment and that remains
unpaid at the commencement of the term of
supervised release.
Unless the court has expressly ordered otherwise,
if this judgment imposes imprisonment, payment of
criminal monetary penalties is due during
imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.
The defendant shall receive credit for all
payments previously made toward any criminal
monetary penalties imposed.
***

App-23
Appendix D
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF ILLINOIS
________________
No. 3:17-CR-30001
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

JASON LAUT,
Defendant.
________________
Filed: Jan. 18, 2017
________________
INDICTMENT
________________
THE GRAND JURY CHARGES:
COUNTS 1-6
Wire Fraud
A. Introduction
At all times relevant:
1. JASON LAUT (LAUT) was employed by
MedStar ambulance company as a paramedic,
paramedic supervisor (operations supervisor) and as
the Dispatch Manager. LAUT was also a system
administrator, which allowed him the ability to edit or
alter data entered on Patient Care Reports (PCR) that
were generated during and after ambulance calls for
service.

App-24
2. MedStar is an ambulance service located in
Sparta, Illinois with a satellite office in Belleville,
Illinois. MedStar operates within Region 4 of the
Southern Illinois Emergency Medical Services (EMS)
System while providing services to residents in St.
Clair, Randolph and Clinton Counties in Illinois.
3. Paramedics can lawfully dispense controlled
substances to individuals in the performance of their
duties only when directed to do so by the receiving
hospital or by Standard Operating Guidelines
established by a licensed medical director.
4. A PCR is a document that is generated during
and after an ambulance call for service detailing the
call for service and the actions taken by the paramedic
and emergency medical technician in providing
services to a patient and includes any medication
administered to a patient.
5. The software utilized to create and maintain
the PCR is known as Physio-Control Data Solutions
and the servers that house the software is located in
the State of Minnesota. Any input, edits or alterations
of the PCR that were made by LAUT using his
administrative access occurred within the Southern
District of Illinois and thereby changed the data stored
outside of the State of Illinois.
6. Southwestern Illinois EMS System is operated
out of Memorial Hospital in Belleville, Illinois.
Memorial Hospital is an Illinois Department of Public
Health approved resource hospital. In this role,
Memorial Hospital and its professional medical staff
would maintain supplies of drugs including controlled
substances including Fentanyl and Morphine that
would be utilized on patients by ambulance

App-25
paramedics consistent with predetermined policies
and procedures. Memorial Hospital would supply
various drugs, including Fentanyl and Morphine, to
paramedics in containers known as Narcotics Boxes.
Staff at Memorial Hospital would refill a depleted
Narcotics Box from one of the Region 4 ambulances
when a paramedic would present the Narcotics Box
and Narcotics Log.
7. A Narcotics Log is a paper document utilized by
ambulance companies, including MedStar, to keep
track of the usage and waste of controlled substances
while in service. This document is initially filled out
by a pharmacist who issues the Narcotics box and then
an entry is made on the log anytime paramedics
dispense, or dispose of drugs in any fashion. This
Narcotics Log is then given back to a pharmacist with
the Narcotics Box and a new box and log is then given
to the requesting paramedic. The Narcotics Log is the
only record that accounts for the use or destruction of
controlled substances and is therefore critical to any
ability to conduct audits of the use or misuse of
controlled substances outside of the hospital.
8. Memorial Hospital enters the Narcotics Log
data into a program called Omnicell, which is used to
order new drugs in order to maintain a ready supply.
Memorial Hospital pays for drugs used by the various
ambulance companies in Region 4.
9. Fentanyl is an opioid narcotic controlled
substance that is used to treat severe pain. It has a
high risk for addiction and dependence. Fentanyl
utilized by paramedics in Region 4 was in the liquid
form. Fentanyl is a Schedule II controlled substance.

App-26
10. Morphine is a narcotic controlled substance
used to treat moderate to severe pain. It has a high
risk of addiction and dependence. Morphine utilized
by paramedics in Region 4 was in the liquid form.
Morphine is a Schedule II controlled Substance.
11. On or before January 13, 2013, tampering,
theft, misuse and abuse of controlled substances,
including Fentanyl and Morphine, was identified as
taking place in Region 4 within the EMS ambulance
community.
12. In August of 2014, with continued concerns
regarding the tampering, theft, misuse and abuse of
controlled substances taking place, a Region 4 system
wide inventory took place. This inventory was of all
ambulances and ambulance companies system wide.
During this inspection, MedStar ambulances were
found to have only 8 intact vials of Fentanyl while 55
vials showed evidence of tampering.
B. The Scheme to Defraud
13. From in or around January of 2013, and
continuing until in or around May of 2015, in St. Clair,
Randolph and Clinton Counties within the Southern
District of Illinois,
JASON LAUT,
defendant, did devise a scheme to defraud Memorial
Hospital through the theft, obtaining by fraud, and
misuse of controlled substances, namely Fentanyl and
Morphine, while performing duties as a paramedic or
paramedic supervisor.
C. Manner and Means of the Scheme
14. Laut, utilizing his administrator access,
would and did alter PCR reports for ambulance runs

App-27
to indicate that controlled substances, specifically
Fentanyl and Morphine, were dispensed when in fact
they were not dispensed, wasted or utilized.
15. Laut would enter false information onto
Narcotics Logs for Narcotics Boxes maintained in
ambulances where he was acting as the paramedic, for
those where he arrived on scene as a supervisor and
also the Narcotics Log for the Narcotics Box in his
supervisory vehicle.
16. Laut would falsely claim on the Narcotics Log
to have given controlled substances to patients where
no ambulance trip was made or that the patient did
not exist. These “phantom” entries occurred on
numerous occasions.
17. Laut claimed to have given controlled
substances to patients that refused medical treatment
or where the condition of the patient would have
precluded the use of Fentanyl or Morphine.
18. Laut falsely claimed to have received
authorization for the dispensing of controlled
substances, including on at least one occasion where
the doctor he claimed gave the authority, no longer
worked at the receiving hospital.
D. The Wire Communication
19. On or about the dates set forth below, in the
Southern District of Illinois and elsewhere,
JASON LAUT,
defendant herein for the purpose of executing the
scheme described above, and attempting to do so,
caused to be transmitted by means of wire
communications in interstate commerce the signals

App-28
and sounds described below for each count, each
transmission constituting a separate count:
COUNT DATE

DESCRIPTION

1

5/22/13

Patient Care Report for
(RM) that was created on or
about 1/19/13 was altered to
indicate that Fentanyl was
administered to patient (RM).

2

5/22/13

Patient Care Report for
(PM) that was created on or
about 1/23/13 was altered to
show that Fentanyl was
administered to patient (PM).

3

5/22/13

Patient Care Report for
(DM) that was created on or
about 4/23/13 was altered to
show that Fentanyl was
administered to patient (DM).

4

9/14/13

Patient Care Report for
(DR) that was created on or
about 8/14/13 was altered to
show that Fentanyl was
administered to patient (DR).

5

10/26/13 Patient Care Report for
(KN) that was created on or
about 10/15/13 was altered to
show that Fentanyl was
administered to patient (KN).

App-29
6

9/4/14

Patient Care Report for
(PG) that was created on or
about 8/27/14 was altered to
show that Fentanyl was
administered to patient (PG).
The patient narrative history
was also altered.

All in violation of Title 18, United States Code, Section
1343.
COUNTS 7-35
False Statements
20. Paragraphs 1-18 are realleged
incorporated in each count set forth below.

and

21. On or about the dates set forth below, in St.
Clair County, within the Southern District of Illinois,
JASON LAUT,
defendant, did willfully and knowingly make and use
a false writing and document, knowing the same to
contain a materially false, fictitious and fraudulent
statement and entry, in a matter within the
jurisdiction United States Drug Enforcement
Administration, which is within the executive branch
of the Government of the United States, by submitting
a Narcotics Log from the emergency vehicles identified
below that contained materially false statements
regarding the dispensing of controlled substances,
each date constituting a separate count:
Count

Vehicle ID for Date
Narcotics Log

7

4G34

September 14, 2013

App-30
8

4G34

September 21, 2013

9

4G34

April 12, 2014

10

4G34

May 10, 2014

11

4G34

June 6, 2014

12

4G34

July 4, 2014

13

4G17

July 18, 2014

14

4G17

July 20, 2014

15

4G34

August 2, 2014

16

4G34

August 12, 2014

17

4G17

August 17, 2014

18

4G34

August 22, 2014

19

4G17

September 29, 2014

20

4G34

November 22, 2014

21

4G17

December 19, 2014

22

4G34

January 18, 2015

23

4G21

March 30, 2015

24

4C74

April 25, 2015

25

4G21

April 26, 2015

26

4C61

April 26, 2015

27

4C61

May 4, 2015

28

4G21

May 6, 2015

29

4G34

May 6, 2015

30

4G29

May 12, 2015

31

4G21

May 22, 2015

32

4G17

May 25, 2015

33

4C74

May 26, 2015

App-31
34

4G34

May 26, 2014

35

4G20

May 27, 2015

All in violation of Title 18, United States Code, Section
1001(a).
COUNT 36
Aggravated Identity Theft
22. On or about July 4, 2014, in St. Clair County,
Illinois, in the Southern District of Illinois,
JASON LAUT,
defendant, did knowingly use, without legal authority,
a means of identification of another person, (Doctor
T.B.), during and in relation to a felony violation
enumerated in 18 U.S.C. § 1001(a), to wit False
Statements as alleged in Count 12, knowing that the
means of identification belonged to another actual
person. All in violation of Title 18, United States Code,
Section 1028A(a)(1).
COUNT 37
Aggravated Identity Theft
23. On or about May 6, 2015, in St. Clair County,
Illinois, in the Southern District of Illinois,
JASON LAUT,
defendant, did knowingly use, without legal authority,
a means of identification of another person, (Doctor
T.B.), during and in relation to a felony violation
enumerated in 18 U.S.C. § 1001(a), to wit False
Statements as alleged in Count 28, knowing that the
means of identification belonged to another actual
person. All in violation of Title 18, United States Code,
Section 1028A(a)(1).

App-32
A TRUE BILL
[REDACTED]
[handwritten: signature]
DONALD S. BOYCE
United States Attorney
Southern District of Illinois
[handwritten: signature]
RANLEY R. KILLIAN
Assistant United States Attorney
Bond Recommendation: $20,000 unsecured

App-33
Appendix E
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF ILLINOIS
________________
No. 3:17-CR-30001
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

JASON LAUT,
Defendant.
________________
Filed: June 21, 2017
________________
SUPERSEDING INDICTMENT
________________
THE GRAND JURY CHARGES:
COUNTS 1-6
Wire Fraud
A. Introduction
At all times relevant:
1. JASON LAUT (LAUT) was employed by
MedStar ambulance company as a paramedic,
paramedic supervisor (operations supervisor) and as
the Dispatch Manager. LAUT was also a system
administrator, which allowed him the ability to edit or
alter data entered on Patient Care Reports (PCR) that
were generated during and after ambulance calls for
service.

App-34
2. MedStar is an ambulance service located in
Sparta, Illinois with a satellite office in Belleville,
Illinois. MedStar operates within Region 4 of the
Southern Illinois Emergency Medical Services (EMS)
System while providing services to residents in St.
Clair, Randolph and Clinton Counties in Illinois.
3. Paramedics can lawfully dispense controlled
substances to individuals in the performance of their
duties only when directed to do so by the receiving
hospital or by Standard Operating Guidelines
established by a licensed medical director.
4. A PCR is a document that is generated during
and after an ambulance call for service detailing the
call for service and the actions taken by the paramedic
and emergency medical technician in providing
services to a patient and includes any medication
administered to a patient.
5. The software utilized to create and maintain
the PCR is known as Physio-Control Data Solutions
and the servers that house the software is located in
the State of Minnesota. Any input, edits or alterations
of the PCR that were made by LAUT using his
administrative access occurred within the Southern
District of Illinois and thereby changed the data stored
outside of the State of Illinois.
6. Southwestern Illinois EMS System is operated
out of Memorial Hospital in Belleville, Illinois.
Memorial Hospital is an Illinois Department of Public
Health approved resource hospital. In this role,
Memorial Hospital and its professional medical staff
would maintain supplies of drugs including controlled
substances including Fentanyl and Morphine that
would be utilized on patients by ambulance

App-35
paramedics consistent with predetermined policies
and procedures. Memorial Hospital would supply
various drugs, including Fentanyl and Morphine, to
paramedics in containers known as Narcotics Boxes.
Staff at Memorial Hospital would refill a depleted
Narcotics Box from one of the Region 4 ambulances
when a paramedic would present the Narcotics Box
and Narcotics Log.
7. A Narcotics Log is a paper document utilized by
ambulance companies, including MedStar, to keep
track of the usage and waste of controlled substances
while in service. This document is initially filled out
by a pharmacist who issues the Narcotics Box and
then an entry is made on the log anytime paramedics
dispense, or dispose of drugs in any fashion. This
Narcotics Log is then given back to a pharmacist with
the Narcotics Box and a new box and log is then given
to the requesting paramedic. The Narcotics Log is the
only record that accounts for the use or destruction of
controlled substances and is therefore critical to any
ability to conduct audits of the use or misuse of
controlled substances outside of the hospital.
8. Memorial Hospital enters the Narcotics Log
data into a program called Omnicell, which is used to
order new drugs in order to maintain a ready supply.
Memorial Hospital pays for drugs used by the various
ambulance companies in Region 4.
9. Fentanyl is an opioid narcotic controlled
substance that is used to treat severe pain. It has a
high risk for addiction and dependence. Fentanyl
utilized by paramedics in Region 4 was in the liquid
form. Fentanyl is a Schedule II controlled substance.

App-36
10. Morphine is a narcotic controlled substance
used to treat moderate to severe pain. It has a high
risk of addiction and dependence. Morphine utilized
by paramedics in Region 4 was in the liquid form.
Morphine is a Schedule II controlled Substance.
11. On or before January 13, 2013, tampering,
theft, misuse and abuse of controlled substances,
including Fentanyl and Morphine, was identified as
taking place in Region 4 within the EMS ambulance
community.
12. In September of 2014, with continued concerns
regarding the tampering, theft, misuse and abuse of
controlled substances taking place, a Region 4 system
wide inventory took place. This inventory was of all
ambulances and ambulance companies system wide.
During this inspection, MedStar ambulances were
found to have only eight (8) intact vials of Fentanyl
while 55 vials showed evidence of tampering. All
Fentanyl was removed from ambulances throughout
Region 4.
13. In January of 2015, Memorial Hospital began
reissuing Fentanyl to EMS vehicles. This allowed
paramedics to utilize the pain control medication
during the performance of their duties as a paramedic.
14. On May 25, 2015, it was determined that
Fentanyl had again been tampered with while being
utilized by the Region 4 EMS community. A system
wide recall of all Fentanyl from Region 4 ambulances
determined that 30 vials had evidence of tampering,
while 28 of those vials were found on ambulances
operated by MedStar.

App-37
B. The Scheme to Defraud
15. From in or around January of 2013, and
continuing until in or around May of 2015, in St. Clair,
Randolph and Clinton Counties within the Southern
District of Illinois,
JASON LAUT,

defendant, did devise a scheme to defraud Memorial
Hospital through the theft, obtaining by fraud, and
misuse of controlled substances, namely Fentanyl and
Morphine, while performing duties as a paramedic or
paramedic supervisor.
C. Manner and Means of the Scheme
16. Laut, utilizing his administrator access,
would and did alter PCR reports for ambulance runs
to indicate that controlled substances, specifically
Fentanyl and Morphine, were dispensed when in fact
they were not dispensed, wasted or utilized.
17. Laut would enter false information onto
Narcotics Logs for Narcotics Boxes maintained in
ambulances where he was acting as the paramedic, for
those where he arrived on scene as a supervisor and
also the Narcotics Log for the Narcotics Box in his
supervisory vehicle.
18. Laut would falsely claim on the Narcotics Log
to have given controlled substances to patients where
no ambulance trip was made or that the patient did
not exist. These “phantom” entries occurred on
numerous occasions.
19. Laut claimed to have given controlled
substances to patients that refused medical treatment
or where the condition of the patient would have
precluded the use of Fentanyl or Morphine.

App-38
20. Laut falsely claimed to have received
authorization for the dispensing of controlled
substances, including on at least one occasion where
the doctor he claimed gave the authority, no longer
worked at the receiving hospital.
D. The Wire Communication
21. On or about the dates set forth below, in the
Southern District of Illinois and elsewhere,
JASON LAUT,
defendant herein for the purpose of executing the
scheme described above, and attempting to do so,
caused to be transmitted by means of wire
communications in interstate commerce the signals
and sounds described below for each count, each
transmission constituting a separate count:
COUNT DATE

DESCRIPTION

1

5/22/13

Patient Care Report for
(RM) that was created on or
about 1/19/13 was altered to
indicate that Fentanyl was
administered to patient (RM).

2

5/22/13

Patient Care Report for
(PM) that was created on or
about 1/23/13 was altered to
show that Fentanyl was
administered to patient (PM).

3

5/22/13

Patient Care Report for
(DM) that was created on or
about 4/23/13 was altered to
show that Fentanyl was
administered to patient (DM).

App-39
Patient Care Report for
(DR) that was created on or
about 8/14/13 was altered to
show that Fentanyl was
administered to patient (DR).

4

9/14/13

5

10/26/13 Patient Care Report for
(KN) that was created on or
about 10/15/13 was altered to
show that Fentanyl was
administered to patient (KN).

6

9/4/14

Patient Care Report for
(PG) that was created on or
about 8/27/14 was altered to
show that Fentanyl was
administered to patient (PG).
The patient narrative history
was also altered.

All in violation of Title 18, United States Code, Section
1343.
COUNTS 7-35
False Statements
20. Paragraphs 1-18 are realleged
incorporated in each count set forth below.

and

21. On or about the dates set forth below, in St.
Clair County, within the Southern District of Illinois,
JASON LAUT,

defendant, did willfully and knowingly make and use
a false writing and document, knowing the same to
contain a materially false, fictitious and fraudulent
statement and entry, in a matter within the
jurisdiction United States Drug Enforcement

App-40
Administration, which is within the executive branch
of the Government of the United States, by submitting
a Narcotics Log from the emergency vehicles identified
below that contained materially false statements
regarding the dispensing of controlled substances,
each date constituting a separate count:
Count

Vehicle ID for Date
Narcotics Log

7

4G34

September 14, 2013

8

4G34

September 21, 2013

9

4G34

April 12, 2014

10

4G34

May 10, 2014

11

4G34

June 6, 2014

12

4G34

July 4, 2014

13

4G17

July 18, 2014

14

4G17

July 20, 2014

15

4G34

August 2, 2014

16

4G34

August 12, 2014

17

4G17

August 17, 2014

18

4G34

August 22, 2014

19

4G17

September 29, 2014

20

4G34

November 22, 2014

21

4G17

December 19, 2014

22

4G34

January 18, 2015

23

4G21

March 30, 2015

24

4C74

April 25, 2015

25

4G21

April 26, 2015

App-41
26

4C61

April 26, 2015

27

4C61

May 4, 2015

28

4G21

May 6, 2015

29

4G34

May 6, 2015

30

4G29

May 12, 2015

31

4G21

May 22, 2015

32

4G17

May 25, 2015

33

4C74

May 26, 2015

34

4G34

May 26, 2014

35

4G20

May 27, 2015

All in violation of Title 18, United States Code, Section
1001(a).
COUNT 36
Aggravated Identity Theft
24. On or about July 4, 2014, in St. Clair County,
Illinois, in the Southern District of Illinois,
JASON LAUT,
defendant, did knowingly use, without legal authority,
a means of identification of another person, (Doctor
T.B.), during and in relation to a felony violation
enumerated in 18 U.S.C. § 1001(a), to wit False
Statements as alleged in Count 12, knowing that the
means of identification belonged to another actual
person. All in violation of Title 18, United States Code,
Section 1028A(a)(1).
COUNT 37
Aggravated Identity Theft
25. On or about May 6, 2015, in St. Clair County,
Illinois, in the Southern District of Illinois,

App-42
JASON LAUT,
defendant, did knowingly use, without legal authority,
a means of identification of another person, (Doctor
T.B.), during and in relation to a felony violation
enumerated in 18 U.S.C. § 1001(a), to wit False
Statements as alleged in Count 28, knowing that the
means of identification belonged to another actual
person. All in violation of Title 18, United States Code,
Section 1028A(a)(1).
COUNT 38
Tampering with a Consumer Product
26. On or about September 14, 2014, in the St.
Clair County, within the Southern District of Illinois,
JASON LAUT,
with reckless disregard for the risk that another
person would be placed in danger of death or bodily
injury, and under circumstances manifesting extreme
indifference to such risk, did tamper with a consumer
product that affected interstate and foreign commerce,
specifically the Schedule II controlled substance
Fentanyl, by extracting the Fentanyl through the top
of the vial, and replacing the Fentanyl with a solution
or substance other than the labeled consumer product
Fentanyl. All in violation of Title 18, United States
Code, Section 1365(a)(4).
COUNT 39
Tampering with a Consumer Product
27. On or about May 25,2015, in the St. Clair
County, within the Southern District of Illinois,

App-43
JASON LAUT,
with reckless disregard for the risk that another
person would be placed in danger of death or bodily
injury, and under circumstances manifesting extreme
indifference to such risk, did tamper with a consumer
product that affected interstate and foreign commerce,
specifically the Schedule II controlled substance
Fentanyl, by extracting the Fentanyl through the top
of the vial, and replacing the Fentanyl with a solution
or substance other than the labeled consumer product
Fentanyl. All in violation of Title 18, United States
Code, Section 1365(a)(4).
A TRUE BILL
[REDACTED]
[handwritten: signature]
DONALD S. BOYCE
United States Attorney
Southern District of Illinois
[handwritten: signature]
[handwritten: for] RANLEY R. KILLIAN
Assistant United States Attorney
Bond Recommendation: $20,000 unsecured

App-44
Appendix F
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF ILLINOIS
________________
No. 3:17-CR-30001
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

JASON LAUT,
Defendant.
________________
Filed: Oct. 3, 2017
________________
SECOND SUPERSEDING INDICTMENT
________________
THE GRAND JURY CHARGES:
A. Introduction
At all times relevant:

COUNTS 1-6

Wire Fraud
1. JASON LAUT (LAUT) was employed by
MedStar ambulance company as a paramedic,
paramedic supervisor (operations supervisor) and as
the Dispatch Manager. LAUT was also a system
administrator, which allowed him the ability to edit or
alter data entered on the Prehospital Care Report
(PCR), also ref erred to as “Patient Care Report,” that

App-45
was generated during and after ambulance calls for
service.
2. MedStar is an ambulance service located in
Sparta, Illinois with a satellite office in Belleville,
Illinois. MedStar operates within Region 4 of the
Southern Illinois Emergency Medical Services (EMS)
System while providing services to residents in St.
Clair, Randolph and Clinton Counties in Illinois.
3. Paramedics can lawfully dispense controlled
substances to individuals in the performance of their
duties only when directed to do so by the receiving
hospital or by Standard Operating Guidelines (SOG)
established by a licensed medical director.
4. A PCR is a document that is generated during
and after an ambulance call for service detailing the
call for service and the actions taken by the paramedic
and emergency medical technician in providing
services to a patient and includes any medication
administered to a patient.
5. The software utilized to create and maintain
the PCR is known as Physio-Control Data Solutions
and the server that houses the software is located in
the State of Minnesota. Any input, edits or alterations
of the PCR that were made by LAUT using his
administrative access occurred within the Southern
District of Illinois and thereby changed the data stored
outside of the State of Illinois.
6. Southwestern Illinois EMS System is operated
out of Memorial Hospital in Belleville, Illinois.
Memorial Hospital is an Illinois Department of Public
Health approved resource hospital. In this role,
Memorial Hospital and its professional medical staff
would maintain supplies of controlled substances

App-46
including Fentanyl and Morphine that would be
utilized on patients by ambulance paramedics
consistent
with
predetermined
policies
and
procedures. Memorial Hospital would supply various
drugs, including Fentanyl and Morphine, to
paramedics in containers known as Narcotics Boxes.
Staff at Memorial Hospital would refill a depleted
Narcotics Box from one of the Region 4 ambulances
when a paramedic would present the Narcotics Box
and Narcotics Log.
7. A Narcotics Log is a paper document utilized by
ambulance companies, including MedStar, to keep
track of the usage and waste of controlled substances
while in service. This document is initially filled out
by a pharmacist who issues the Narcotics Box and
then an entry is made on the log anytime paramedics
dispense or dispose of drugs in any fashion. This
Narcotics Log is then given back to a pharmacist with
the Narcotics Box and a new box and log is then given
to the requesting paramedic. The Narcotics Log is the
only record that accounts for the use or destruction of
controlled substances and is therefore critical to any
ability to conduct audits of the use or misuse of
controlled substances outside of the hospital.
8. Memorial Hospital enters the Narcotics Log
data into a program called Omnicell, which is used to
order new drugs in order to maintain a ready supply.
Memorial Hospital pays for drugs used by the various
ambulance companies in Region 4.
9. Fentanyl is an opioid narcotic controlled
substance that is used to treat severe pain. It has a
high risk for addiction and dependence. Fentanyl

App-47
utilized by paramedics in Region 4 was in the liquid
form. Fentanyl is a Schedule II controlled substance.
10. Morphine is a narcotic controlled substance
used to treat moderate to severe pain. It has a high
risk of addiction and dependence. Morphine utilized
by paramedics in Region 4 was in the liquid form.
Morphine is a Schedule II controlled Substance.
11. On or before January 13, 2013, tampering,
theft, misuse and abuse of controlled substances,
including Fentanyl and Morphine, was identified as
taking place in Region 4 within the EMS ambulance
community.
12. In September of 2014, with continued concerns
regarding the tampering, theft, misuse and abuse of
controlled substances taking place, a Region 4 system
wide inventory took place. This inventory was of all
ambulances and ambulance companies system wide.
During this inspection, MedStar ambulances were
found to have only eight (8) intact vials of Fentanyl
while 55 vials showed evidence of tampering. All
Fentanyl was removed from ambulances throughout
Region 4.
13. In January of 2015, Memorial Hospital began
reissuing Fentanyl to EMS vehicles. This allowed
paramedics to utilize the pain control medication
during the performance of their duties as a paramedic.
14. On May 25, 2015, it was determined that
Fentanyl had again been tampered with while being
utilized by the Region 4 EMS community. A system
wide recall of all Fentanyl from Region 4 ambulances
determined that 30 vials had evidence of tampering,

App-48
while 28 of those vials were found on ambulances
operated by MedStar.
B. The Scheme to Defraud
15. From in or around January of 2013, and
continuing until in or around May of 2015, in St. Clair,
Randolph and Clinton Counties within the Southern
District of Illinois,
JASON LAUT,
defendant, did devise a scheme to defraud Memorial
Hospital through the theft, obtaining by fraud, and
misuse of controlled substances, namely Fentanyl and
Morphine, while performing duties as a paramedic or
paramedic supervisor.
C. Manner and Means of the Scheme
16. LAUT, utilizing his administrator access,
would and did alter PCR reports for ambulance runs
to indicate that controlled substances, specifically
Fentanyl and Morphine, were dispensed when in fact
they were not dispensed, wasted or utilized.
17. LAUT would enter false information onto
Narcotics Logs for Narcotics Boxes maintained in
ambulances where he was acting as the paramedic, for
those where he arrived on scene as a supervisor and
also the Narcotics Log for the Narcotics Box in his
supervisory vehicle.
18. LAUT would falsely claim on the Narcotics
Log to have given controlled substances to patients
when in fact no ambulance trip was made and the
patient did not exist. These “phantom” entries
occurred on numerous occasions.

App-49
19. LAUT claimed to have given controlled
substances to patients that in fact refused medical
treatment or where the condition of the patient would
have precluded the use of Fentanyl or Morphine.
20. LAUT falsely claimed to have received
authorization for the dispensing of controlled
substances, including on at least one occasion where
the doctor he claimed gave the authority, no longer
worked at the receiving hospital.
D. The Wire Communication
21. On or about the dates set forth below, in the
Southern District of Illinois and elsewhere,
JASON LAUT,
defendant herein, for the purpose of executing the
scheme described above, and attempting to do so,
caused to be transmitted by means of wire
communications in interstate commerce the signals
and sounds described below for each count, each
transmission constituting a separate count:
COUNT DATE

DESCRIPTION

1

5/22/13

Patient Care Report for
(RM) that was created on or
about 1/19/13 was altered to
indicate that Fentanyl was
administered to patient (RM).

2

5/22/13

Patient Care Report for
(PM) that was created on or
about 1/23/13 was altered to
show that Fentanyl was
administered to patient (PM).

App-50
3

5/22/13

Patient Care Report for
(DM) that was created on or
about 4/13/13 was altered to
show that Fentanyl was
administered to patient (DM).

4

9/14/13

Patient Care Report for
(DR) that was created on or
about 8/14/13 was altered to
show that Fentanyl was
administered to patient (DR).

5

10/26/13 Patient Care Report for
(KN) that was created on or
about 10/15/13 was altered to
show that Fentanyl was
administered to patient (KN).

6

9/4/14

Patient Care Report for
(PG) that was created on or
about 8/27/14 was altered to
show that Fentanyl was
administered to patient (PG).
The patient narrative history
was also altered.

All in violation of Title 18, United States Code, Section
1343.
COUNTS 7-35
False Statements
20. Paragraphs 1-20 are realleged
incorporated in each count set forth below.

and

21. On or about the dates set forth below, in St.
Clair County, within the Southern District of Illinois,

App-51
JASON LAUT,
defendant, did willfully and knowingly make and use
a false writing and document, knowing the same to
contain a materially false, fictitious and fraudulent
statement and entry, in a matter within the
jurisdiction United States Drug Enforcement
Administration, which is within the executive branch
of the Government of the United States, by submitting
a Narcotics Log from the emergency vehicles identified
below that contained materially false statements
regarding the dispensing of controlled substances,
each date constituting a separate count:
Count

Vehicle ID for Date
Narcotics Log

7

4G34

September 14, 2013

8

4G34

September 21, 2013

9

4G34

April 12, 2014

10

4G34

May 10, 2014

11

4G34

June 6, 2014

12

4G34

July 4, 2014

13

4G17

July 18, 2014

14

4G17

July 20, 2014

15

4G34

August 2, 2014

16

4G34

August 12, 2014

17

4G17

August 17, 2014

18

4G34

August 22, 2014

19

4G17

September 29, 2014

20

4G34

November 22, 2014

App-52
21

4G17

December 19, 2014

22

4G34

January 18, 2015

23

4G21

March 30, 2015

24

4C74

April 25, 2015

25

4G21

April 26, 2015

26

4C61

April 26, 2015

27

4C61

May 4, 2015

28

4G21

May 6, 2015

29

4G34

May 6, 2015

30

4G29

May 12, 2015

31

4G21

May 22, 2015

32

4G17

May 25, 2015

33

4C74

May 26, 2015

34

4G34

May 26, 2014

35

4G20

May 27, 2015

All in violation of Title 18, United States Code, Section
1001(a).
COUNT 36
Aggravated Identity Theft
24. Paragraphs 1-20 are realleged
incorporated in Count 36 set forth below.

and

25. On or about July 4, 2014, in St. Clair County,
Illinois, in the Southern District of Illinois,
JASON LAUT,
defendant, did knowingly use, without legal authority,
a means of identification of another person, (Doctor
T.B.), during and in relation to a felony violation
enumerated in 18 U.S.C. § 1001(a), to wit False

App-53
Statement as alleged in Count 12, knowing that the
means of identification belonged to another actual
person.
All in violation of Title 18, United States Code,
Section 1028A(a)(1).
COUNT 37
Aggravated Identity Theft
26. Paragraphs 1-20 are realleged
incorporated in Count 37 set forth below.

and

27. On or about May 6, 2015, in St. Clair County,
Illinois, in the Southern District of Illinois,
JASON LAUT,
defendant, did knowingly use, without legal authority,
a means of identification of another person, (Doctor
T.B.), during and in relation to a felony violation
enumerated in 18 U.S.C. § 1001(a), to wit False
Statement as alleged in Count 28, knowing that the
means of identification belonged to another actual
person.
All in violation of Title 18, United States Code, Section
1028A(a)(1).
COUNT 38
Tampering with a Consumer Product
28. Paragraphs 1-20 are realleged
incorporated in Count 38 set forth below.

and

29. From on or about January 26, 2015, to on or
about May 25, 2015, in St. Clair County, within the
Southern District of Illinois, and elsewhere,
JASON LAUT,
with reckless disregard for the risk that another
person would be placed in danger of death or bodily

App-54
injury, and under circumstances manifesting extreme
indifference to such risk, did tamper with a consumer
product that affected interstate and foreign commerce,
specifically the Schedule II controlled substance
Fentanyl, by puncturing the protective cover on the
top of the Fentanyl vial, extracting Fentanyl through
the protective cap on the top of its vial, and replacing
the extracted Fentanyl in the vial with a solution or
substance other than the labeled consumer product
Fentanyl.
All in violation of Title 18, United States Code, Section
1365(a)(4).
[handwritten: signature]
DONALD S. BOYCE
United States Attorney
Southern District of Illinois
[handwritten: signature]
RANLEY R. KILLIAN
MICHAEL J. QUINLEY
Assistant United States Attorneys
Bond Recommendation: $20,000 unsecured

